Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




   AFDC PRE-ELIGIBILIW FRAUD
      INVESTIGATIVE UNITS
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Sewices’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. TM
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

Atlanta Retion                                                Headquarters

Peggy Daniel, Project Leader                                  Wm. Mark Krushat, SC.D.

Betty Apt, Team Leader                                        Ruth Folchman

Jackie Andrews                                                Ann O’Connor

Joe Townsel


To obtain additional copies of this report, please call the Atlanta Regional Office at (404) 331-

5022.

              EXECUTIVE                            SUMMARY


PURPOSE

To determine whether or not local pre-eligibility fraud investigative units are effective
in preventing inappropriate   payments of Aid to Families with Dependent        Children.

BACKGROUND

The Aid to Families with Dependent         Children (AFDC) program provides financial
assistance to families with children who are deprived of support due to death, absence,
or disability of at least one parent. Some families with children deprived of support
due to unemployment       of the principal wage earner may also receive AFDC assistance.
In Fiscal Year 1991, the AFDC program paid about $20.7 billion in Federal and State
funds to about 12.5 million people. The Administration      for Children and Families
estimated that about $1 billion of those funds were inappropriate      payments.

To prevent fraud and alleviate resulting overpayments     caused by incorrect applicant-
provided information, some State and local AFDC offices established pre-eligibility
fraud investigative units. The principal objective of pre-eligibility fraud investigative
units is to prevent applicants from fraudulently obtaining AFDC benefits. They do so
by verifying applicant-provided information before AFDC payments are made.
Preventing inappropriate AFDC payments is more effective than trying to recover
payments after applicants have received them.

FINDINGS

Be-eligibilityjiaud investigative
                                unitsqiJective/y
                                               preventinapproptiteAIIDCpayments

Thirty-nine local offices we sumeyed reported that investigations by pre-eligibility fraud
investigative units resulted in savings of over $41 million in program funds in 1992.
The savings per unit ranged from a low of $1.20 per dollar of operating costs to a high
of $104.34. The costs and savings information provided by the 39 selected offices
showed a weighted average savings of about $8.43 for every $1.00 spent operating a
unit.

We were unable to compare the relative effectiveness of pre-eligibility fraud
investigative units to that of AFDC eligibility workers. Data to make such a
comparison was not available. Most local offices did not keep records on application
denial rates. Therefore, we could not compare denial rates prior to establishment          of
pre-eligibility fraud investigative units to denial rates after such units were operating.
Further, where denial rates were available, dollar savings resulting from denials by
eligibility workers had not been computed.




                                               i
However, savings resulting from pre-eligibility fraud investigative units are additional
to any that might result from eligibility worker decisions, and investigative and
prosecution activities of regular AFDC fraud units. AFDC eligibility workers may
cause applicants to withdraw fraudulent applications, or the workers may deny such
applications. To the extent that fraudulent applications are withdrawn or denied, a
savings to AFDC occurs. Every denial or withdrawal caused by pre-eligibility fraud
investigative units represent additional savings to that resulting from eligibility workers.
Likewise, even when fraud is discovered later by regular fraud units, erroneous
payments have already been made. Such payments are very difficult and certainly
inefficient to recover. Therefore, preventing such improper payments before they
occur is an additional savings.

Local AFDC officials we interviewed also told us the presence of pre-eligibility fraud
investigators in a community help deter fraud. Applicants may be less likely to
provide false information if they know investigators will be interviewing relatives,
neighbors, and employers to substantiate applicant-provided information.

he-eligibility fraud investigative
                                 unitsuse basicinvestigative
                                                           techniques

Staff at essentially all of the AFDC offices we inspected said they most often relied on
basic investigative techniques. These included (1) interviews with relatives, neighbors,
landlords, and employers, (2) unannounced visits to applicants’ homes, (3) matching
applicant-provided financial information with Federal and State databases, and (4)
assisting eligibility caseworkers interview applicants. None of the offices we inspected
used sophisticated techniques such as fingerprinting and electronic surveillance.

About 74 percent of the local AFDC offices we surveyed required that pre-eligibility
fraud investigations be completed within 15 days after cases are referred by eligibility
caseworkers. A fast turnaround time is essential for investigation results to be useful
to eligibility decisions. Caseworkers must usually determine eligibility in 30 days for
benefit payments to be made to eligible applicants within the federally mandated 45
day time limit.

Mbst pre-e&ibilityjk
                  aud investigative
                                  unitsare organizationally
                                                         independentof AFDC
benejitpayrnentssections

About 62 percent of the sampled pre-eligibility fraud investigative units reported to

supervisors that were organizationally independent of a benefit payments (eligibility)

section. Local officials generally advised that keeping pre-eligibility fraud investigative

units organizationally independent is beneficial because the missions of benefit

payments workers and investigators differ. Eligibility workers have a social work ethic

of wanting to help people and may give eligibility to an applicant even when there is

doubt about eligibility. Conversely, investigators are interested in preventing fraud and

look for proof of eligibility. The difference in missions can create a conflict of

interest.




                                              ii
However, officials from all the local AFDC offices we surveyed said pre-eligibility
fraud investigative units are most effective when physically located near eligibility staff.
They said such a physical location helps assure (1) effective communication, (2) timely
referrals, (3) quick feedback, and (4) accessibility to eligibility workers’ files.

RECOMMENDATIONS

We could not reliably project a nationwide savings, but 39 local AFDC offices claimed
to have saved on average over $8 for every $1 spent on pre-eligibility fraud
investigative units. We recognize that pre-eligibility fraud investigative units might not
be appropriate in every local office. However, such units could achieve significant
savings in a cost effective manner in many areas. States and localities might well want
to consider the advantages of establishing such units. Therefore, we recommend that
the Administration for Children and Families (ACF) encourage and help all States
establish pre+ligiiility fraud investigative units. ACF can do this by:

  F	   disseminating information on pre-eligibility fraud investigative units to States
       and localities without units, and

  b	   offering technical assistance to States interested in establishing pre-eligibility
       fraud investigative units.

AGENCY COMMENTS

The Assistant Secretary for Children and Families commented on the report. She
noted that we combined figures from units reporting only AFDC savings and costs
with figures from units reporting AFDC and food stamps savings and costs. ACF also
noted that we did not validate data States provided. We agree, and have disclosed
our methodology in our report. We combined costs and savings in our calculation
because some local AFDC offices could not separate AFDC and food stamp
operations. However, we reported that 17 local AFDC offices that could separate
AFDC and food stamps saved almost $9 million in only AFDC. Further, savings
reported by the sampled units represented misspent Federal funds regardless of
whether the savings came from the AFDC or food stamp program.

ACF reported that they make information available to States about innovative
programs, and are developing a catalogue that will make such information more
usable for States. We support their efforts, and believe they should include
considerable information on pre-eligibility fraud investigative units. We know States
have an interest in this information because several States and a consultant from
Canada have contacted the OIG for such data upon hearing about our inspection.




                                              ...
                                              111
                    TABLE                    OF CONTENTS

                                                                                                                PAGE

EXECUTIVE       suMMARY


INTRODUCTION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”.”     .“s”1


FINDINGS

   Pre-eligibility Fraud Investigative Units Are Effective                       . . . . . . . . . . . . . . . . . . . . 5


   Pre-eligibility Fraud Investigative Units

   Use Basic Investigative Techniques. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


   Most Pre-Eligibility Fraud Investigative Units

   Are Organizationally Independent      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10



RECOMMENDATIONS. . . . . . . . . . . .                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...13


AGENCY COMMIWB.                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14


APPENDICES


    Sampled LocalAFDC             Offices      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


    Methodology for Calculating Savings and Computing Cost Benefits                                    . . . . . . . B-1


    ACF Comments         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1

                            INTRODUCTION


PURPOSE

To determine whether or not local pre-eligibility fraud investigative units are effective
in preventing inappropriate payments of Aid to Families with Dependent Children.

BACKGROUND

Amc    l%gm?n

The Aid to Families with Dependent Children (AFDC) program provides financial
assistance to families with children who are deprived of support due to death, absence,
or disability of at least one parent. Some families with children deprived of support
due to unemployment of the principal wage earner may also receive AFDC assistance.

The Administration for Children and Families (ACF), Department of Health and
Human Services (HHS), has Federal responsibility for AFDC. The program is
authorized by title IV-A of the Social Security Act. States administer the program
through local offices--either district, county, or city. Program costs are shared by
Federal and State governments. The Federal government pays 50 percent of the
administrative costs and a percentage of the AFDC payments. The percentage varies
by State and is determined by a formula using Department of Commerce statistics.
Generally, poorer States receive a larger Federal contribution than affluent States for
AFDC payments. In some States, counties pay part of the non-Federal portion of
AFDC payments.

In Fiscal Year 1991, the AFDC program paid about $20.7 billion in Federal and State
funds to about 12.5 million people. The ACF estimated that about $1 billion of those
funds were inappropriate paymentsl.

AFDC l%e-Eligibility
                   Freud Inv@&ative U&

To receive AFDC benefits, applicants must complete an application. Local
caseworkers then attempt to verify applicant-provided information to determine
eligibility and amount of financial assistance. An inappropriate AFDC payment occurs
when an applicant fails to accurately report facts which might affect the AFDC
payment, and when a State fails to act properly on known information. Intentionally
withholding or misrepresenting facts by an applicant may be considered fraud.




       lAdministration for Children and Families, Quarterly Public Assistance Statistics, Fiscal Year
1991



                                                   1

All States are required to identi~ alleged fraud and develop procedures for referring
these cases to law enforcement officials. In most States, this is accomplished in on-
going fraud units. ACF shares the expense of these activities with other programs and
the State. The AFDC share is subject to the regular 50 percent administrative cost
matching rate. However, to prevent fraud and alleviate resulting overpayments caused
by incorrect applicant-provided information, some State and local AFDC offices
established pre-eligibility fraud investigative units. The principal objective of pre-
eligibility fraud investigative units is to prevent applicants from fraudulently obtaining
AFDC benefits. They do so by verifying applicant-provided information before AFDC
payments are made. Preventing inappropriate AFDC payments is more effective than
trying to recover them after applicants have received them.

AFDC caseworkers refer applications to pre-eligibility fraud investigative units for
investigation when a caseworker suspects an applicant has provided incomplete and
inaccurate information to obtain benefits. Investigators then attempt to verify the
applicant’s financial and family circumstances. They do so by comparing applicant-
provided information with information obtained from (1) employers, neighbors, family,
and friends, (2) unannounced visits to applicants’ homes to verify residence and
household composition, and (3) computer matches with State databases, such as
departments of labor wage files.

In 1987, we reported that pre-eligibility fraud investigative units were effective in
detecting fraudulent application information and preventing inappropriate AFDC
payments in two California counties 2. In 1993, we reported that 26 States, in addition
to California, had established pre-eligibility fraud investigative units3.

SCOPE

We included 11 States and 39 local welfare offices that have pre-eligibility fraud
investigative units in our inspection. We focused our inspection on (1) whether or not
pre-eligibility fraud investigative units were effective in preventing inappropriate
AFDC payments, and (2) how the units were operated.

METHODOLOGY

We used a two-stage    cluster sampling process to select States and local offices for
inspection.  First, we randomly selected 12 States from the universe of 26 States. Our
universe included all States that had pre-eligibility fraud investigative units except
California.  Secondly, we selected 53 local offices from the 12 States. We dropped



    20ffke of Inspector General, United States Department of Health and Human Serviees. State
Investigation of Fraud in the Aid to Families with Dependent Children (AFDC) Program. 0Al-04-86-
00066.

   30ftice of Inspector General, United States Department of Health and Human Serviees. AFDC
Pre-Eligibi/ity Verification Measures. OEI-O4-91-OO1OO.


                                                  2
one State with four local offices from our sample because it no longer had pre-
eligibility fraud investigative units as of June 1993. This reduced the sample size to 11
States and 49 local offices. Ten of the 49 local offices did not respond to our survey-­
therefore, reducing our sample results to 39 local offices. Appendix A shows the local
welfare offices appearing in our sample.

We excluded California from our universe for two reasons. First, we had inspected
and reported on local programs in that State in 1987. Second, the California program
is atypical of most other States. California was the original pioneer to use pre-
eligibility fraud investigative units, and their program is one of the largest in the
United States. It is also generally more aggressive than other States in detecting
fraud. For example, many California counties used trained peace officers rather than
social workers for investigators. As such, California may have more advanced
investigative techniques which could bias our sample results. We did, however, inspect
operations of pre-eligibility fraud investigative units in five local offices in California.
We expect to report our findings in a subsequent report.

To obtain information on operations and results of selected pre-eligibility fraud
investigative units, we (1) sulveyed all selected States and local offices, (2) reviewed
pertinent documentation, and (3) interviewed appropriate officials and staff. To
illustrate, we mailed survey questionnaires to six States and 29 local offices. Using the
same survey instrument, we obtained information from the remaining five States and
10 local offices through personal interviews. Further, we obtained reports and other
documentation on estimates of savings, program evaluations, policies, and procedures.

Finally, we interviewed staff from the United Council on Welfare Fraud. This
organization has over 2500 agencies and individuals interested in maximizing efforts to
prevent, detect, and eliminate welfare fraud.

To determine the effectiveness of pre-eligibility fraud investigative units, we computed
cost/benefits for our selected offices in 1992. We based our cost/benefit computation
on costs and savings information provided by our sample States and local AFDC
offices. We did not validate the accuracy of the information they provided. In
estimating savings, States included inappropriate AFDC payments that were prevented
due to a pre-eligibility fraud investigative unit. States also included AFDC payments
prevented when applicants withdrew applications after a pre-eligibility fraud
investigation was initiated.

Eleven counties in two selected States did not provide specific costs and savings.
However, the two State offices provided such data for all the counties in the State that
had pre-eligibility fraud investigative units. We used the average costs and savings for
all the counties to represent costs and savings for each of the 11 counties in our
sample. Appendix B shows how we calculated cost/benefit ratios.




                                              3

We were unable to compare the relative effectiveness of pre-eligibility fraud
investigative units to that of AFDC eligibility workers. Data to make such a
comparison was not available. Most local offices did not keep records on application
denial rates. Therefore, we could not compare denial rates prior to establishment of
pre-eligibility fraud investigative units to denial rates after such units were operating.
Further, where denial rates were available, dollar savings resulting from denials by
eligibility workers had not been computed.

We also did not compare the pre-eligibility ffaud investigative program of one local
AFDC office to that of another. The structures and policies of the units were
designed to meet the needs of specific localities. We believed it inappropriate to rate
the units based on a written survey, and we were unable to visit each location to
evaluate whether or not the units met the needs of specific locations.



This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              4

                                 FINDINGS


PRM3LIGIBILITY       FRAUD INVESTIGATIVE            UNITS EFFECTIVELY           PREVENT
INAPPROPRIATE        AFDC PAYMENTS

All State and local AFDC officials we sampled said that pre-eligibility fraud
investigative units are effective in preventing inappropriate AFDC payments. The
units disclose discrepancies in applicant-provided information that result in a reduction
or denial of AFDC assistance. Eligibility workers may not have the time or inclination
to challenge and verify all suspicious applicant-provided information. Pre-eligibility
fraud investigative units can validate applicant-provided information before eligibility is
approved. Also, the presence of fraud investigative units in a community has a
deterrent effect on fraudulent claims for AFDC assistance.

Preventing inappropriate AFDC payments is easier than trying to recover them after
an AFDC recipient has received and used them. The procedures required to
document fraud are lengthy, and recovering inappropriate welfare payments is very
difficult. Pre-eligibility fraud investigative units detect potential fraud before welfare
payments begin. Therefore, the need to recover inappropriate payments is eliminated.

On Averagq fie-El&ibilityFreud InvestigativeUhiksSaved Over 8 llmes l’heirCos&

The 39 local AFDC offices responding to our survey estimated that their pre-eligibility

fraud investigative units prevented about $45 million in inappropriate welfare

assistance during 1992. The $45 million included inappropriate AFDC payments, food

stamps, and general assistance payments in 22 of the 39 offices. In the other 17

offices, the savings represented only AFDC funds. The operating costs for the 39

units during 1992 was about $3.7 million. Therefore, savings attributable to the pre-

eligibility fraud investigative units of the 39 offices were about $41.3 million (prevented

inappropriate assistance minus operating costs).


The savings per pre-eligibility fraud investigative unit ranged from a low of $1.20 per

dollar of operating costs to a high of $104.34. As the chart on the next page shows,

about 56 percent of the 39 units saved between $1 and $9 for each dollar of operating

costs. About eight percent of the units saved over $50 per dollar of operating costs.

The costs and savings information provided by the 39 selected offices showed a

weighted average savings of about $8.43 for every $1.00 spent on a pre-eligibility fraud

investigative unit.





                                             5

         ESTIMATED           SAVINGS PER DOLLAR OF OPERATING                                             COST’S
                            Number of Fraud Units
                      25,                                                                            I
                            I    22




                       u —.           ——.   L.             2             7
                                                                                   o
                                                                                          I
                                                                                          m
                                                                                               3




                                $1-$9       $10-$19     $20-$29       $30-$39   $40-$49       $50+
                                                        Dollar

                                                            Savings





Only 17 of the 39 local offices could provide data that showed AFDC savings
separately. In 1992, the pre-eligibility fraud investigative units of those 17 offices
produced savings to the AFDC program of about $8.9 million after deducting
operating expenses.

The officials we interviewed said that pre-eligibility fraud investigative units frequently
identify discrepancies in applications for AFDC. Once identified, the discrepancies
either limit the amount of AFDC assistance, or disquali& an applicant for assistance.
The officials identified the following most commonly found discrepancies.

  �
        Applicants underreport              their income so that expenses exceed income.

   �	
        Applicants incorrectly report their household composition. They may show that
        a parent is absent when in fact the parent is residing in the household with
        their children. Likewise, they may report children in the home who are not
        actually residing there.

   �	
        Applicants may report incorrect addresses. They may report living at one
        address when they actually reside in another county or State and receive AFDC
        benefits there.

   �
        Applicants may underreport                    their property and assets.

The savings resulting from pre-eligibility fraud investigative units are additional to any
that might result from eligibility worker decisions, and investigative and prosecution
activities of regular AFDC fraud units. AFDC eligibility workers may cause applicants
to withdraw fraudulent applications, or the workers may deny such applications. To
the extent that fraudulent applications are withdrawn or denied a savings to AFDC
occurs. Every denial or withdrawal caused by pre-eligibility fraud investigative units


                                                                  6
represent additional savings to that resulting from eligibility workers. Likewise, even
when fraud is discovered later by regular fraud units, erroneous payments have already
been made. Such payments are very difficult and certainly inefilcient to recover.
Therefore, preventing such improper payments before they occur is an additional
savings.

I?e-E@ibility Freud InvestigativeU.       Help Deter Freud�

Local AFDC officials we interviewed told us the presence of pre-eligibility fraud
investigative units in a community helps deter fraud in three ways.

First, the presence of fraud investigators in a community may make people more
reluctant to provide false information to acquire AFDC eligibility. The investigative
process of interviewing relatives, friends, neighbors, employers, landlords, and others in
a community causes AFDC applicants to think that their applications will be
investigated. As a result, they are less likely to submit false information.

Second, the presence of an investigator in a community allows easy access for people
to provide information on defrauders. To illustrate, a friend or neighbor who is
temporarily angry with a defrauder may provide information to an investigator who is
readily available in the community. However, such associates are less likely to actively
seek out a welfare office to inform on a defrauder--particularly after their anger has
subsided. Likewise, neighbors, friends, and relatives may know of welfare fraud and
resent it, but they are not likely to go to a welfare office to inform on a defrauder.
Often, however, they will divulge information to an investigator who is readily available
in the community.

Third, through continuous presence in a community, an investigator may develop
networks of people who can provide information on fraudulent activities. To illustrate,
investigators in one county told us they have established networks of “snitches” akin to
those used in police work. Through such networks, investigators discover locations of
mail-drops used to falsely establish a residency. Likewise, they discover residences
where groups of defrauders live and assist each other in deceit and cover-up. Such
information typically leads to closing on-going AFDC grants and preventing new
improper AFDC grants.


PRE-ELIGIBIIII’Y         FRAUD INVESTIGATIVE           UNITS USE BASIC
INVESTIGATIVE           TECHNIQUES

Most Commonly UsedInvestigativeTechn@es�

Pre-eligibility   fraud investigative units used basic investigative techniques to prevent
inappropriate      AFDC payments and deter fraud. Staff at essentially all of the AFDC




                                                7

offices we inspected said they most often relied on the following techniques.

  �	
       Collateral intetiews   with relatives, friends, neighbors, landlords, employers, and
       others

  �
       Personal visits to an AFDC applicant’s home

  �
       Surveillance of an AFDC applicant’s home

  �	
       Matching financial and personal information provided by applicants with
       Federal and State computer databases

  �
       Assisting eligibility caseworkers interview applicants

None of the offices we inspected used sophisticated techniques such as fingerprinting,
searching criminal information files, and electronic surveillance.

Eligibility caseworkers refer applicants for investigation when they have reason to
suspect fraud. The specific investigative technique used depends largely on the
particular questions eligibility workers have about an applicant’s application. For
example, if an applicant says she is not working but the eligibility caseworker suspects
that the applicant is working, the investigator would likely interview the applicant’s
neighbors and household members. In such instances, investigators might also cross
match applicant-provided information with Federal or State wage records.

Likewise, investigators may assist eligibility caseworkers in interviewing applicants who
are suspected of providing incorrect information. Some eligibility caseworkers told us
that investigators often help prevent fraud by assisting them in interviewing applicants.
To illustrate, eligibility workers often do not have time, and may not have an
inclination, to challenge and veri~ applicant-provided information. As a result,
applicants may take a chance and provide false information to an eligibility worker.
However, eligibility workers who are suspicious about applicant-provided information
may ask an investigator to assist in jointly interviewing the applicant. In such
instances, applicants who intended to falsify their application are reluctant to do so.
Because of an investigator’s presence in an interview, such applicants often correct
information they previously provided or withdraw an incorrect application.

AFDC O@es Requirellmely tie-eligibilityFraudInvestigations�

The AFDC offices we surveyed had local policies specifying the length of time for
conducting a pre-eligibility fraud investigation. As illustrated by the table on the next
page, about 51 percent of the local AFDC offices we surveyed required that pre-
eligibility fraud investigations be completed within 5 days after a case is referred.
About 74 percent of the offices required that cases be investigated within 15 days after
referral. Only about 5 percent of our sampled 39 offices allowed more than 30 days
for conducting a pre-eligibility fraud investigation.


                                              8
                   LOCAL AFDC OFFICE POLICY ON TIMEIJNESS
                   OF PRIM3LIGIBILJTY      FRAUD INVESTIGATIONS
                   ‘*@q&           *:::
                                                   :y   MA
                                                         ,.    ixl$@iw     ,.
                         Within 5 days                        20
                          6-10days                            4
                          11-15   days                        5
                          16-20   days                        o
                          21-30   days                        8
                       More than 30 days                      2
               r
               II           TOTAL                  I          39            II

A fast turnaround time on cases referred for pre-eligibility fraud investigation is
essential. Caseworkers must determine eligibility in sufficient time for benefit
payments to be made within a federally mandated 45 day time limit. Therefore, if
investigation results are to be useful to eligibility decisions, they must be completed in
time for eligibility workers to correct erroneous information and process an application
for payment. Most eligibility workers told us they need to finalize the eligibility
decision within 30 days in order to meet the 45 day time limit.

InvestigatorAre UsedFor Both ~e-eligibilityand On-goingxU?DC Cases�

Most pre-eligibility fraud investigative units investigate both pre-eligibility applications
and potential fraud in on-going AFDC grants. Investigators in 27 of the 39 (about 69
percent) AFDC offices we surveyed said they do both pre-eligibility and on-going
investigations. Investigators in 23 of the 27 offices establish both the existence and
extent of fraud. Investigators in 4 of the 27 offices only establish the existence of
fraud. Thereafter, the four units refer cases to a separate unit to document the extent
of fraud. Investigators in the remaining 12 AFDC offices (31 percent) we surveyed
said they investigate only pre-eligibility AFDC applicants.

A potential benefit of having investigators do both pre-eligibility and on-going fraud
cases is that techniques learned for on-going fraud investigations can be used for pre-
eligibility fraud investigations. However, some officials said requiring investigators to
work both pre-eligibility and on-going fraud cases is ineffective.

Investigators who do on-going fraud investigations in addition to pre-eligibility may
find that on-going fraud cases require so much time, they do not have sufficient time
to conduct thorough pre-eligibility fraud investigations. In most of the AFDC offices
where investigators w-ork both pre-eligibility and on-going cases, investigators must
take whatever action is needed to prosecute fraud cases. For example, they document



                                              9

fraudulent actions by AFDC recipients, determine overpayment amounts, and may

prepare cases for legal prosecution. This is a very time-consuming process, and many

AFDC officials stated that their investigators’ time could be used more effectively on

pre-eligibility fraud investigations. This isthereason   that four of thelocal~C

oftlces that investigate both pre-eligibility and on-going cases refer fraud cases to a

separate unit for the fraud work-up. Pre-eligibility fraud investigations are generally

perceived to be more effective than fraud investigations of on-going cases because it is

easier to stop a fraudulent payment before it occurs than it is to recover

overpayments.



MOST PRE-ELIGIBIIJTY   FRAUD INVESTIGATIVE UNITS ARE

ORGANIZATIONALLY     INDEPENDENT OF AFDC BENEFIT PAYMENT

SECTIONS


About 62 percent (24 of 39) of the pre-eligibility fraud investigative units we surveyed

reported to supervisors that were independent of a benefit payments section4. The

remaining 15 units (38 percent) reported to supervisors that were organizationally a

part of a benefit payments section.


The organizational location of pre-eligibility fraud investigative units varied

considerably among the 39 local offices we surveyed. As shown by the chart on the

following page, 15 (or about 38 percent) of the independent local pre-eligibility fraud

investigative units reported directly to the welfare agency director. At one local office,

the pre-eligibility fraud investigative unit reported to the welfare agency director

through the staff attorney. The pre-eligibility fraud investigative unit of another local

office reported to the county welfare director through the administrative office.

Another 7 (about 18 percent) of the organizationally independent units reported to a

State AFDC agency. None of the local offices we surveyed had organizationally

placed the pre-eligibility fraud investigative unit within Social Services.





    4Benefit payment sections generally determine eligibility for AFDC, food stamps, and Medicaid
assistance.


                                                 10
                      ORGANIZATIONAL I.X)CATION OF
               PIUM3LIGIBILJTY FRAUD INVESTIGATIVE UNITS





                  GiiiGl
                  lJuEJ”.\
                         \\WELFARE
                       FRAUD
                             COUNTY
                   INVESTIGATION

                     (I3 UNITS)
                                  DIR
   ‘\\
                                               v  STlfl”E

                                               AFDCAGENCY

                                                (7UNITS]





                                                                     S’lXFF
                                                                   AT’10RNEY

                                                                    [1 UNIT)




                        BENEFIT    ADMINISTRATION
 SOCIAL

                             SEC.

                      PAYMENTS
                    SERVICES

                        (15

                          UNITS)      [1UNIT)
     [0UNITS)





We did not survey local AFDC officials to determine whether or not organizational
independence from benefit payment sections is more or less beneficial for pre-
eligibility fraud investigative units. Therefore, the advantages and disadvantages of
different organizational alignments are not clear. However, several local AFDC
officials provided anecdotal information on the benefits of organizational placement of
pre-eligibility fraud investigative units.

_       of watih~~                 Ihdependknt~e-eli’ility   FraudInvestigate U&

Some local officials told us that keeping pre-eligibility fraud investigative units
organizationally independent of benefit payment sections is beneficial. Their general
argument for organization independence focused largely on a difference in missions of
benefit payment sections and investigators. They explained that benefit payment
eligibility workers are interested in processing applications and benefit payments
quickly. They said most eligibility workers have a social work ethic of wanting to help
people. Therefore, their focus is to get assistance in the hands of people who need it.
Because of this orientation, eligibility workers may give eligibility to an applicant even
when there is doubt about eligibility.

Conversely, investigators are interested in catching fraud. The objective of
investigators is to prevent fraud and give AFDC assistance only to those who can
prove they qualify. In instances where doubt exists, they look for proof, using such
techniques as unannounced home visits, surveillance, collateral interviews, and cross
matching of government data records.




                                                   11

According to one county manager, the difference in missions of benefit payment
sections and investigators creates a conflict of interest. Benefit payment section staff
sometimes object to investigator mission and techniques and attempt to influence the
results. To illustrate, one investigator advised us of an instance where his supervisor
told him to “back off” when he interviewed an applicant’s neighbors to obtain reliable
eligibility information on earnings and family. The county manager said the pre-
eligibility fraud investigative unit needs to be a neutral activity.

Two local welfare offices we surveyed recently reorganized to remove their
investigative staff from the benefit payment sections. They said the pre-eligibility
fraud investigative units are more effective when organizationally located outside of
the benefit payment section.

_        of Phytial Localbn of I?e-eligibi.lily
                                              Freud Inves.@ations

Some local staffs told us that organizing pre-eligibility fraud investigative units as part
of benefit payment sections is beneficial. However, they did not provide us with any
illustrations of the benefits. Advantages they cited related to physical location rather
than organizational location.

Officials from all the local AFDC offices we surveyed said investigative units are most
effective when physically located near the benefit payment eligibility staffs. They said
such a physical location helps assure

    �
        effective communication between investigators and eligibility workers,

    �
        timely referrals   of cases from eligibility worker to investigator,

    �
        speedy resolution of cases,

    �
        feedback on cases, and

    �
        accessibility to eligibility worker’s case files.




                                                 12

                    RECOMMENDATIONS


The States we surveyed showed a savings-to-costs ratio of over $8 to $1 from use of
pre-eligibility fraud investigative units. We did not project a nationwide savings
because of extreme variations in State AFDC organizations, and a lack of sufficient
data to make a statistically valid estimate. Nevertheless, savings by our sample States
indicate significant potential for nationwide savings if all States used such units. In
addition to potential savings, State officials said the presence of pre-eligibility fraud
investigative units in a community helps to deter fraud.

While our inspection focused primarily on AFDC, the pre-eligibility fraud investigative
units also produced savings in food stamps, general welfare assistance, and potentially
in Medicaid.

We recognize  that pre-eligibility fraud investigative units might not be appropriate in
every local AFDC office, such as in rural communities.       However, the AFDC offices
we inspected provide sufficient indication that significant savings can be achieved in a
cost effective manner in many locations. State and local governments might well wish
to experiment with pre-eligibility fraud investigative units. In fact, some States are
interested in forming such units. For example, one State that currently does not have
a pre-eligibility fraud investigative unit learned of our study and contacted us to obtain
information on the benefits of such units. Therefore, we believe

ACF should actively promote the establishment of pre-eligibility fkaud investigative
units in those States without such units.

ACF can assist States in developing pre-eligibility fraud investigative units by

   b	   disseminating information on pre-eligibility fraud investigative units to States
        and localities without such units, and

   b	   offering technical assistance to States interested in establishing pre-eligibility
        fraud investigative units.

Such activities are compatible with objectives of the Administration’s proposed Work
and Responsibility Act of 1994. The objective of improving government assistance
calls for a central Federal role for interstate coordination of welfare program integrity.
The Federal coordination activities should focus on detection and prevention of fraud
in income support programs and assuring welfare payment accuracy.




                                               13

                   AGENCY                COMMENTS


The Assistant Secretary for Children and Families commented on the report. She
noted that we combined figures from units reporting only AFDC savings and costs
with figures from units reporting AFDC and food stamps savings and costs. ACF also
noted that we did not validate data States provided. We agree, and have disclosed
our methodology in our report. We combined costs and savings in our calculation
because some local AFDC offices could not separate AFDC and food stamp
operations. However, we reported that 17 local AFDC offices that could separate
AFDC and foodstamps saved almost $9 million in only AFDC. Further, savings
reported by the sampled units represented misspent Federal funds regardless of
whether the savings came from the AFDC or food stamp program.

ACF reported that they make information available to States about innovative
programs, and are developing a catalogue that will make such information more
usable for States. We support their efforts, and believe they should include
considerable information on pre-eligibility fraud investigative units. We know States
have an interest in this information because several States and a consultant from
Canada have contacted the OIG for such data upon hearing about our inspection.

Appendix C shows the full text of the comments provided by ACF.




                                           14

                       APPENDIX          A


                  SAMPLED LOCAL AFDC OFFICES




ANCHORAGE               ANCHORAGE
PULASKI (NORTH)         NORTH IXIT’LE ROCK
PULASKI (SOUTH)        \IXIIZEROCK
SEBASTIAN              IFr.   sMrrH
WASHINGTON             I FAYETI’EVILLE         IAR      II
UNION                  ) EL DORADO
HINDs                   JACKSON                    MS
HARRISON                GULFPORT                   MS
MERCER                 ITRENTON                I   NJ   II
BURLINGTON             IMT.   HOLLY            I   NJ   II
CAMDEN                 I CAMDEN                I   NJ   II
PASSAIC                I PATI’ERSON            I   NJ   II
SUFFOLK                I HAUPPAUGE             INY      II
ERIE

HERKIMER
               HERKIMER
ROCKLAND
               POMONA
WESTCHESTER
            WHITE PLAINS
HAMILTON
               CINCINNATI                 OH
PIKE
                   WAVERLY                    OH
BUTLER
                 HAMILTON                   OH
ROSS
                  ICHnLocoTHE
PHILADELPHIA
          I PHILADELPHIA          I   PA   II
ALLEGHENY    (SOUTH)
 I PHT’SBURGH             I   PA   II
ALLEGHENY    (EAST)
    P1’ITSBURGH                PA
BUCKS
                  BRISTOL                    PA



                                  A-1

                     j	 SIOUX    FALLS

 PENNINGTON              RAPID CITY                        SD

 NEWPORT      NEWS       NEWPORT NEWS                      VA

 BRUNSWICK               LAWRENCEVILI.J3                   VA

 CHARM)TI’E              ~TI’E            COURTHOUSE       VA

IIHALIFAX            IHALE-AX                          I   VA    II

IIYORK               \   YoRKTowN

                     I MADISON

IISHEBOYGAN          ISHEBOYGAN                        I w-I II

 KENOSHA             I KENOSHA                         bvrll

 ST. CROIX           I NEW RICHMOND                    I   WI    II

 RICHLAND            IRICHLAND        CENTER           I   WI    II





                                   A-2
                             APPENDIX                     B


                METHOIXXX)GY FOR CAU!ULATING SAVINGS
                     AND COMPUTING COST BENEFITS


To determine effectiveness of pre-eligibility fraud investigative units, we compared
their operating costs to the program savings resulting from their investigations. We
used costs and savings figures provided by local and State agencies. We did not
validate the accuracy of the information they reported.

Generally, selected local and State AFDC offices considered a savings to be the
difference between the benefits, if any, an applicant received after an investigation and
what the applicant would have received without an investigation. The difference
typically represents a one month savings. However, most AFDC recipients receive
benefits for more than one month. Therefore, to project the savings, local offices
typically multiply the one month savings by the number of months that AFDC
recipients usually remain on their rolls.

To illustrate, in 1992 one local office pre-eligibility fraud investigative unit prevented
$S9,000 in erroneous benefits from being paid. The investigators found 111 applicants
had provided incorrect information. Once the correct information was found, the
potential benefits for the 111 applicants were either reduced or denied. To determine
the potential savings of the investigative unit for the 111 applicants, the local office
multiplied the $59,000 by 12 months. The 12 months was based on State records
which showed that most AFDC recipients in that State typically receive benefits for at
least 12 months. Therefore, the estimated savings was $708,000--the $59,000 monthly
savings x 12 months average benefit period.            -

To compute costs/benefits of pre-eligibility fraud investigative units, we did the
following analyses.

Firs~ we determined the monthly savings. In instances where an AFDC office had
projected its savings to several months, we reduced the estimate to one month by
dividing the reported savings by the number of months used in the projection. For
example, if a local office reported 12 months     savings of $708,000, we divided by 12 to
get a one month savings of $59,000.



$780,000112    = $59,000 Monthly Savings




                                           B-1

Sea@ we projected the monthly savings over a six month period. We used six
months for our projection because AFDC cases are usually reviewed every six months
to reestablish eligibility. Therefore, if a fraudulent application had been approved, it
is possible that the error would have been identified and corrected during the six
month review.


$59,000 x 6 = $354,000 l+ojected Savings


Finally, we computed cost/benefit ratios. We divided projected savings by operating
costs. The cost/benefit ratio shows potential savings for every dollar spent on pre-
eligibility fraud investigative units. Since most operating costs such as salaries, space,
and equipment are fixed, we used annual cost figures provided by local agencies. We
realize this procedure may understate the actual expected savings, however we
believed a more conservative estimate of savings was appropriate.


$354,000 / $50,000 = $7.08 Costlbenejit Ratio


Our example shows that the pre-eligibility fraud investigative unit saved $7.08 in
program funds for every $1.00 of operating costs.




                                           B-2

APPENDIX    C




ACF COMMENTS




      c-1
     Page 2 - June Gibbs Brown

     The OIG is aware  of ACF Regional office workplan items to
     conduct and provide follow-up review of State overpayments,
     fraud, and other early fraud detection  program activities.

We appreciate    the opportunity to review and comment on this draft
report .   If you have any comments or wish to discuss this
response   further, please contact Robert Laue (401-5040) or Robert
Shelbourne   (401-5150).
     ,; d   1.:+,

    �
    O+              %




         4
:                        DEPARTMENT    OF HEALTH   & HUMAN   SERVICES
;
*
 8                                                                                                                       —
  %‘+
     .e,.,o
                                                                        ADMINISTRATION       FOR CHILDREN AND FAMILIES
                                                                        Office of the Assistant Secreta~Suite 60~
                                                                        370 L’Enfant Promenade, S.W. SAIG
                                                                        Washington, D.C.20447
                                                                                                         PIXG    —

                        DATE :        January 11, 1995

                        TO:
          June Gibbs Brown                                               E1~.~[
                                      Inspector General                                              M(3-CFAA _
                        FROM :        Mary Jo Bane                                                   fiYG-MP
                                                        >7-
                                      Assistant Secretary      s~                                    cYGc/IG
                                        for Children & Families                                      XSEC
                                                                                                     DATE SENT&
                        SUBJECT :     OIG Draft Report: “AFDC Pre-Eligibility Fraud
                                      Investigative Units,” OEI-O4-91-OO1O1

                        We have reviewed the OIG draft report on AFDC Pre-Eligibility
                        Fraud Investigative Units and provide the following comments:

                               It appears that the data used to develop the weighted
                               average ($8.00 savings for $1.00 of cost) comes from a mix
                               of data - separated AFDC costs from other program costs, as
                               well as non-separated costs that include Medicaid and Food
                               Stamps. With the exception of personal statements by
                               State/local staff as to the effectiveness of pre-eligibility
                               fraud investigative units, the draft report is vague
                               regarding specific data sources. Also, data accuracy was
                               not validated.

                                 The report recommends that ACF actively promote the
                                 establishment of pre-eligibility fraud investigative units
                                 by disseminating information about the units and offering
                                 technical assistance to States interested in establishing
                                 such units. Though not specific to pre-eligibility fraud
                                 investigative units, ACF has made and continues to make such
                                 information available to the States. One example is an
                                 issuance of an Information Memorandum regarding Minnesota’s
                                 llFrau~ prevention Programl “ demonstrating effective methods
                                 for cutting red-tape and empowering employees to obtain
                                 results.   In addition, ACF is in the process of developing a
                                 system we refer to as SWAP (Sharing Workable Achievements
                                 and Practices) to provide States with an up-to-date, easy-
                                 to-use, catalogue of information that will enable States to
                                 develop contacts with other State agencies who have
                                 undertaken innovative program improvements and/or
                                 procedures.   These would not be the usual “best practices. ”
                                 The SWAP system will include operational processes States
                                 have implemented that hd~c~-      d,o,llarsavings, as well as
                                 add to the effectiv%%ie%%’~~ -~~ 6 1program administration.
                                                      00’5 v ZI I’MM!
